<html>
<title> - IMPROVING SECURITY AND FACILITATING COMMERCE AT AMERICA'S NORTHERN BORDER AND PORTS OF ENTRY</title>
<body><pre>[Senate Hearing 112-260]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-260
 
  IMPROVING SECURITY AND FACILITATING COMMERCE AT AMERICA'S NORTHERN 
                       BORDER AND PORTS OF ENTRY 

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2011

                               __________

                          Serial No. J-112-21

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-807 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHARLES SCHUMER, New York            JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                  CHARLES SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa
DICK DURBIN, Illinois                ORRIN HATCH, Utah
AL FRANKEN, Minnesota                JON KYL, Arizona
RICHARD BLUMENTHAL, Connecticut      JEFF SESSIONS, Alabama
               Stephanie Marty, Democratic Chief Counsel
                 Matt Johnson, Republican Chief Counsel




















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Cornyn, Hon. Jon, a U.S. Senator from the State of Texas.........     2
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................    71
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     5
Schumer, Hon. Charles, a U.S. Senator from the State of New York.     1

                               WITNESSES

Bersin, Alan, Commissioner, U.S. Customs and Border Protection, 
  Department of Homeland Security, Washington, DC................     7
Morton, John, Director, U.S. Immigration and Customs Enforcement, 
  Department of Homeland Security, Washington, DC................     8

                         QUESTIONS AND ANSWERS

Responses of Alan Bersin to questions submitted by Senator Cornyn 
  and Sessions...................................................    24
Responses of John Morton to questions submitted by Senator Cornyn    48

                       SUBMISSIONS FOR THE RECORD

Bersin, Alan, Commissioner, U.S. Customs and Border Protection, 
  Department of Homeland Security, Washington, DC, statement.....    50
Border Trade Alliance (BTA), Nelson Balido, President, San 
  Antonio, Texas, May 17, 2011, letter...........................    62
Cortez, Richard, Mayor and Bridge Board Chair of McAllen, 
  McAllen, Texas, statement......................................    68
Kelley, Colleen M., National President, National reasury 
  Employees Union (NTEU), Washington, DC, statement..............    73
Morton, John, Assistant Secretary, U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security, Washington, DC, 
  statement......................................................    86
Russell, Addie J., Assemblywoman 118th River District, Albany, 
  New York, statement............................................   103
Weisberg-Stewart, Monica, Texas Border Coalition, Austin, Texas, 
  statement......................................................   106
Washington Post, December 6, 2010, article.......................   108


  IMPROVING SECURITY AND FACILITATING COMMERCE AT AMERICA'S NORTHERN 
                       BORDER AND PORTS OF ENTRY

                              ----------                              


                         TUESDAY, MAY 17, 2011

                                       U.S. Senate,
                               Commmittee on the Judiciary,
                               Subcommittee on Immigration,
                              Refugees and Border Security,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., Room 
226, Dirksen Senate Office Building, Hon. Charles E. Schumer, 
Chairman of the Subcommittee, presiding.
    Present: Senators Leahy, Klobuchar, Grassley, and Cornyn.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
    FROM THE STATE OF NEW YORK, CHAIRMAN OF THE SUBCOMMITTEE

    Senator Schumer. The hearing will come to order. Thank you 
all for being here. I want to thank our Ranking Member, John 
Cornyn, and my leader on this Committee and our great chair, 
Senator Leahy, for being here.
    Anyway, today's hearing is on improving security and 
facilitating commerce at our northern border and ports of 
entry. Last August, along with Senator Kyl, I passed a $600 
million supplemental border bill that fortified the southern 
border. But after we addressed the southern border, the 
Government Accountability Office issued a report indicating 
that, ``Only 32 of the nearly 400 northern border miles in 
fiscal year 2010 had reached an acceptable level of security.''
    Upon reading that report, I asked Commissioner Bersin and 
Director Morton, the heads of the two major agencies who are 
responsible for border security to testify here today on how we 
can improve security at our northern border.
    The Department of Homeland Security has good people who are 
working very hard with limited resources, under incredibly 
difficult circumstances, to identify, investigate, and 
interdict terrorists, criminals and smugglers along the 
northern border.
    But more can and must be done. I have a few ideas to 
enhance northern border security that I want to ask the 
witnesses about today, including deploying technology to track 
drug smuggling aircraft on the northern border, bringing an 
integrated, multiagency law enforcement initiative to the 
northern border, and funding state, local and tribal law 
enforcement officials as force multipliers along the northern 
border.
    Although this hearing took several months to schedule, I am 
thankful to finally have our witnesses here. Today's hearing 
will also discuss our ports of entry. Senators Cornyn, Kyl, 
Graham and Feinstein sent Chairman Leahy a letter asking to 
hold a hearing on U.S. ports of entry and infrastructure on the 
southern border.
    Their letter stated many southern border ports of entry 
need additional U.S. Customs and Border Protection and 
infrastructure improvements. In some instances, southern border 
ports of entry also require expansion to accommodate the high 
value of traffic that passes through the ports on a daily 
basis.
    I could not agree more and I believe the same holds true 
for the northern border. I was happy to expand the scope of 
this hearing, with Senator Leahy's permission, to include 
discussion on ports of entry, but I would be remiss if I did 
not point out that H.R. 1, the House appropriations bill for 
2011, actually cut $60 million in funding for our ports of 
entry and also proposed cuts to the Border Patrol of nearly 900 
agents.
    I was very disturbed by these cuts and sent a letter to 
House Appropriations Chairman Hal Rogers and DHS Appropriations 
Subcommittee Chairman Robert Aderholt asking that these cuts be 
reconsidered.
    Although we successfully prevented the cuts to border 
agents, the cuts to ports of entry remained in the continuing 
resolution passed in the House, were insisted on by the House 
in order to avoid a government shutdown, a result, of course, 
that would have been far worse for commerce on the border.
    Now, the House's proposed 2012 DHS appropriations bill cuts 
an additional $26 million for ports of entry. If passed, 
funding for our ports of entry would be cut by 27 percent when 
compared to 2010.
    We need to be very careful to use a scalpel to cut wasteful 
spending as opposed to a meat ax which cuts critical 
investments, like ports of entry, solely to achieve cuts for 
their own sake rather than achieve iconic growth.
    Our distinguished panel will move us closer to finding 
solutions to securing the northern border and our ports of 
entry, and I look forward to their testimony.
    I now recognize the distinguished Ranking Member, Senator 
Cornyn, for a statement.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman, and thanks 
to the witnesses. Chairman Leahy, thank you for allowing us to 
schedule this hearing. It is very important.
    Of course, if you can imagine having a Chairman of the 
Subcommittee from New York and a Ranking Member from Texas, we 
are going to cover both quarters today.
    We know from experience at our ports, borders pose a 
national security risk. Recently, the Government Accountability 
Office confirmed that only 44 percent of the southern border is 
secure. And despite the President's and Secretary Napolitano's 
statements about border security and the number of resources 
that have been devoted to the border, 44 percent is nothing to 
celebrate nor should we declare that our work is done so we can 
then move on to other things.
    We hear stories all the time about smugglers and drug 
cartels, much of which is true, working day and night to try to 
enter the United States undetected. We also hear stories of 
individuals who pose a national security threat attempting to 
enter the United States illegally.
    For example, just a few months ago, a Muslim cleric was 
caught in California in the trunk of a car after being smuggled 
across the southern border. He had previously been deported 
from Canada to Tunisia, but arranged to be smuggled into the 
United States through Central America, Belize, and Mexico.
    Though he was arrested by Customs and Border Patrol, 
thankfully, after being spotted by local firefighters, this 
incident makes me wonder how many others have managed to do the 
same thing he has, and rather than be apprehended, were 
successful.
    Every year, we see many other individuals from countries 
other than Mexico. People other than folks who just want to 
come here and work and provide for their families crossing our 
borders, whether they be enterprising drug cartels, human 
traffickers, people who traffic in illegal weapons, through our 
ports of entry.
    We also know that nearly half of the illegal population in 
America is composed of persons who came here legally and simply 
overstayed their visas, roughly 40 percent, last count I saw, 
of our illegal immigration.
    I think that is an important point, Mr. Chairman, that it 
is not just a matter of border security. It is a matter of 
having enforceable immigration laws and being able to detect 
and apprehend people who overstay their visas, as well.
    According to the General Accounting Office, Department of 
Homeland Security has arrested about 8,100 people who have 
overstayed. But there is a backlog of 1.6 million potential 
overstays that the DHS has not yet even had the opportunity to 
review.
    So we do not know who these individuals are and many times 
we cannot even locate them here in the United States. We also 
do not know whether any of these visa overstays bear ill will 
to the United States or are criminals.
    With the recent changes in the Department of Homeland 
Security's enforcement priorities and uneven enforcement of 
immigration laws, across the country as a result of inadequate 
resource, I am not confident that the DHS will ever be able to 
make sure that we can identify who is here, why they are here, 
and when they have left.
    Secretary Napolitano last week testified before the Senate 
Homeland Security and Government Affairs Committee about visa 
overstays. When asked if she would be increasing investigations 
to locate such individuals, the Secretary stated that to do so 
was a costly and labor-intensive endeavor.
    I agree with that characterization, but it is no excuse not 
to do your job, and this suggests to me that the Secretary does 
not consider visa overstays to be a real priority.
    I am quite sure that locating visa overstays would have 
become an immediate priority for the Administration if Hosam 
Maher Husein Smadi had succeeded in his mission to blow up a 
skyscraper in Dallas in 2009.
    We have made some progress on border and port security 
working together through the past Administration and the 
current Administration. That is good, but we still have a long 
way to go.
    I must say, Mr. Chairman, when you say that the $600 
million we spent fortified the southern border, while we are 
grateful for the additional help, we still need more help. 
There is more work to be done.
    Over the years, I have heard from my constituents, local 
business owners and organizations, like the Texas Border 
Coalition and the Border Trade Alliance, about the long lines 
and extensive delays at southern ports of entry. This makes the 
important point that it is not only about security, it is about 
allowing legitimate trade and commerce to enter the country, 
because that creates jobs here and there and is good for our 
economy.
    I might ask, Mr. Chairman, I have three letters, one from 
the Border Trade Alliance, one from Hon. Richard Cortez, Mayor 
of McAllen, and one from the Texas Border Coalition. I would 
ask unanimous consent to make them part of the record.
    Senator Schumer. Without objection, they will be made part 
of the record, as will the entire statements.
    [The letters appear as a submission for the record.]
    Senator Cornyn. I have also heard about old ports of entry 
that are crumbling and in need of repairs. I am sure that is 
true on the northern border, as well.
    So last week I asked the Border Trade Coalition and Border 
Trade Alliance whether any of their concerns had been 
addressed, and ultimately their concerns remain the same.
    Every year, our southern ports of entry handle 
approximately 352 million travelers and nearly 106 million 
cars, trucks, buses, trains, vessels, and aircraft. Given this 
volume, we should expect Homeland Security to make staffing and 
security changes at ports of entry a priority. Of course, that 
is going to take more resources, and I am not questioning the 
good faith or the good efforts of the Department to do what it 
can with what it has. I am just saying that Congress needs to 
do more to enable these folks at Homeland Security to do their 
job and to do it more thoroughly.
    The calls for changes to ports of entry seem to have fallen 
on deaf ears, though, which is another reason why I am glad we 
are having this hearing today.
    So Secretary Napolitano claims that the border is open for 
business. But at what level? If we really want to highlight 
legitimate trade and commerce, we should be doing everything we 
can to improve our relationship with Mexico, our third largest 
trading partner.
    The Federal Government must do a better job of enabling 
legitimate trade and commerce by expanding trusted traveler and 
shipper programs, finding a better way to plan and finance our 
ports of entry, and improving cooperation between state and 
local officials.
    We need to clamp down on the cartels who exploit every 
avenue to transport guns, drugs, and people in and out of the 
United States. Many people have left the southern border and 
would gladly return to their communities if they felt secure. I 
think if we can provide Mexico with $1.6 billion through the 
Merida Initiative for enforcement, we can surely find enough 
money to improve our ports of entry and provide necessary 
resources to state and local law enforcement.
    Last year, the President signed a supplemental 
appropriation bill that allocated $176 million to fund 1,000 
new Border Patrol agents. While it increased the size of the 
Border Patrol, it barely touched the number of CBP officers 
needed to staff our ports of entry.
    I introduced an amendment that would have authorized $200 
million to hire 500 new CBP officers to staff high volume ports 
of entry and make infrastructure improvements. This amendment 
would have provided resources for Federal, state and local law 
enforcement officials who work on the front lines of the U.S. 
border every day.
    I also have a bill, the Emergency Port of Entry Personnel 
and Infrastructure Funding Act of 2009, which would authorize 
$6 billion over 6 years for additional CBP officers at our 
ports of entry, modernization of our current land ports of 
entry, and construction of new ports on the northern and 
southern borders.
    This bill would authorize a level of funding that would 
truly make a difference at the southern border ports of entry 
and I will continue to push for additional resources while we 
continue to discuss appropriations with the Department of 
Homeland Security.
    Despite all of our challenges, I am glad to say that the 
State of Texas remains a thriving center of economic growth and 
investment. This growth will only continue with the 
prioritization of port of entry construction, approval of trade 
agreements, and increased targeting of illicit trade and 
smuggling.
    I look forward to hearing the testimony today, as well as 
your recommendations for improving commerce and transit through 
our southern ports of entry.
    Thank you, Mr. Chairman.
    Senator Schumer. Thank you, Senator Cornyn.
    Our Chairman is here and he has asked to make a brief 
statement before we get to our witnesses.
    Chairman Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. Thank you, Senator Schumer. I appreciate 
you holding this hearing. Senator Cornyn and you both represent 
states, large states, one on the northern border, one on the 
southern border. And I appreciate you expanding the hearing to 
address commerce at the points of entry.
    I appreciate what the President said last week about 
efforts to enact comprehensive immigration reform. I strongly 
supported former President W. Bush's effort to do that. I wish 
we could have, and I think that we want to be realistic. As 
difficult as it may be politically for some, we are going to 
have to have a comprehensive immigration policy.
    Commissioner Bersin, I honored two Border Patrol agents who 
died in the line of duty last week, Eduardo Rojas, Jr. And 
Hector Clark. And I know that many talked about them when we 
were at the, as Mr. Morton knows, law enforcement event on 
Sunday.
    I say this because nobody should take for granted or forget 
the sacrifices made by the agents of the Border Patrol.
    Now, in Vermont, we do have a border and in our little 
state, we sometimes refer to Canada as the giant to the north. 
But our Canadian neighbors are partners in trade and commerce. 
They are joint stewards of our shared communities, and some of 
our communities are half in Canada, half in Vermont. Both 
nations try and make sure the border is secure.
    It is a vital link in our National security chain. It is 
very challenging to guard and protect the longest, non-
militarized border in the world, and those who want to do us 
harm are going to look for openings and gaps, whether it is in 
the mountain wilderness in New England, the Great Lakes, or the 
rural plains of the Midwest.
    Now, before September 11, 2001, the northern border had 
been chronically understaffed and neglected. Since then, 
Congress has allocated a great deal of money to upgrade the 
equipment we have, the surveillance, vehicles, new stations, 
technology and so on.
    A recent GAO report on northern border security assures 
more can be done, especially in deploying technology and 
developing partnerships with local and state law enforcement.
    I had previously raised concerns with the Secretary of 
Homeland Security because Customs and Border Protection 
staffing in Vermont has dipped considerably in recent years, in 
part, because resources were shifted to the southern border. I 
worry that insufficient staffing will also cause excessive 
delays at the ports of entry, for example, during our summer 
tourism season.
    The ties between Canada and Vermont run deeper than trade 
and commerce and they are based on more than tourism. Many 
Vermont families have members on both sides of the border. We 
have a number of first generation Canadian-Americans in our 
state, at least one of whom is married to this Senator. And 
some towns, like Derby Line, spread across the international 
line.
    I think we have to prove that they are secure, but we have 
to also make sure that people can move back and forth. It is a 
major commercial factor and now with the Canadian dollar worth 
slightly more than the U.S. dollar, which is a major change in 
the last 20 years, it is even that more important.
    I also appreciate the department's effort to help us 
resolve the issue of the Morses Line crossing.
    Last, I would like to discuss the restoration of Amtrak 
rail service between Vermont and Montreal, Quebec. It is a 
critical link that can be done provided we take care of the 
border crossing.
    Senator Schumer has two cross-border trains in New York 
State. There is another one, I believe, operating in Washington 
State. So let us look at these issues, because Canada is an 
enormous trading partner. We have our security concerns, but we 
also have major economic concerns.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Schumer. Thank you, Mr. Chairman.
    Now, let me introduce our witnesses and thank them for 
coming.
    Alan Bersin is Commissioner of U.S. Customs and Border 
Protection. As Commissioner, he oversees the operation of CBP's 
57,000 employee workforce, manages a budget of $11 billion. He 
is responsible for fulfilling CBP's mission of protecting the 
Nation's borders from all threats, while facilitating 
legitimate trade and travel.
    John Morton is the Director of Immigration and Customs, 
ICE. ICE is the principal investigative arm of Homeland 
Security and the second largest investigative agency in the 
Federal Government. Created in 2003, it has a budget of $5.7 
billion, 20,000 employees in offices in all 50 states and 47 
countries.
    The Agency's primary mission is to promote homeland 
security and public safety through the criminal and civil 
enforcement of Federal laws governing border patrol, customs, 
trade, and immigration.
    Gentlemen, your entire statements will be in the record. We 
ask you to limit your testimony to 5 minutes each.
    Mr. Bersin, you may start.

 STATEMENT OF HON. ALAN BERSIN, COMMISSIONER, U.S. CUSTOMS AND 
BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, 
                               DC

    Commissioner Bersin. Good morning and thank you, Chairman 
Schumer, Ranking Member Cornyn, Chairman Leahy, and Senator 
Grassley. It is an honor to be here in front of this 
Subcommittee focusing on the northern border.
    We all know that the southern border has been the primary 
focus of activities of CBP and DHS, as well as DOJ, with regard 
to border affairs, but never do we lose sight of the fact that 
keeping dangerous people and dangerous things away from the 
American homeland, which is the primary obligation of Customs 
and Border Protection, involves a northern border every bit as 
much as the southern border.
    In fact, we have built up the resources, as the Chairman 
has indicated, significantly over the past decade. We at CBP 
have gone from 340 agents to 2,200 agents. We have gone to 279 
air interdiction pilots and agents on the northern border. We 
have gone to 3,800 CBPOs, CBP officers who staff 122 land ports 
of entry that stretch from Washington State to Maine.
    In every respect, we have seen a resourcing of the northern 
border, although not as dramatically extensive as that which 
has taken place on the southern border, actually represents a 
huge increase.
    In the case of Border Patrol agents, we have increased the 
number 650 percent more than six times in the last decade.
    So the question from the standpoint of, I believe, 
Secretary Napolitano, as well as Mr. Morton and myself, as we 
deploy these new resources, is to recognize that borders are 
borders, but as every Canadian, every Mexican, every resident 
of the northern and southern borders will remind us, the 
northern border is different from the southern border; and, in 
fact, we need to take those differences into account.
    While measurements--metrics may, at end, have to be 
responsive to both borders, in fact, they have to both reflect 
a quality of security and a level of quality of life that is 
important to both north and south.
    So what are the major differences in terms of the north as 
we think about moving forward in terms of northern border 
security?
    The first is while, as all of the Senators who have 
commented have indicated, we have $1 billion a day of trade 
going north and south over the Canadian-U.S. border. Building 
up a competitive United States economy in concert with Canada 
so that North America can compete with East Asia, with the 
Indian subcontinent, and with Brazil and South America is a 
critical dimension of our work in Customs and Border 
Protection.
    We recognize that security and economic competitiveness go 
hand-in-hand; that, in fact, when you deal with the volume of 
trade and traffic that comes across the northern border and the 
southern border, that unless we do risk-managed handling of 
that cargo and those persons, unless we separate out trusted 
travelers and trusted shippers from those about which we either 
have derogatory information or about whom we lack sufficient 
information to make a judgment to expedite their movement, that 
we can have both security and economic competitiveness and a 
facilitated lawful traffic and trade.
    Because we are dealing with a border that is three times 
the size of the southern border, 5,400 miles of diverse 
environments which vary in terrain, climate and population 
density, we must look to deploying technology so that we can 
detect threats in ways that are tailored and customized to the 
northern border.
    The second major dimension about our relationship with 
Canada is that we must look at our security not only in terms 
of the northern border and the Canadian southern border, but 
also in terms of North American continental security. And 
recognizing these jointly held objectives, president Obama and 
Prime Minister Harper recently signed a very important accord 
with regard to the Canadian-U.S. border. Entitled ``Beyond the 
Border: A Shared Vision for Perimeter Security and 
Competitiveness,'' it recognizes that we are most secure both 
in Canada and the United States if we look at the job of 
security as being a continental one.
    So as we move forward, Senators, into this vision, we will 
actually have to see security and commerce as contributing to 
one another, not as competing.
    I look forward to answering your questions.
    [The prepared statement of Commissioner Bersin appears as a 
submission for the record.]
    Senator Schumer. Thank you, Mr. Bersin. And your entire 
statement will be read into the record. I know you had more 
testimony.
    And the same for you, Mr. Morton. Your entire statement 
will be read in the record. You may proceed.

 STATEMENT OF HON. JOHN MORTON, DIRECTOR, U.S. IMMIGRATION AND 
     CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Mr. Morton. Chairman Schumer, Ranking Member Cornyn, 
Chairman Leahy, Senator Grassley, good morning to you, to 
Commissioner Bersin, as we discuss security along the northern 
and southern border.
    As you noted, Mr. Chairman, ICE is the Department's 
principal criminal investigative arm, and we have jurisdiction 
over a broad range of crimes relating to border security, 
including export and import controls, international child 
exploitation, and the smuggling of drugs, people and money.
    To this end, we have approximately 1,600 special agents and 
40 intelligence personnel in our northern border offices. We, 
along with our partners at CBP, are also charged with the civil 
arrest, detention and removal of individuals illegally entering 
the country in violation of the immigration laws. We have 
roughly 1,500 enforcement and removal officers in our northern 
border offices dedicated to this task.
    Working with CBP, these special agents and officers have 
produced strong results. Last fiscal year, our offices covering 
the northern border seized a combined total of $38 million, 
nearly 130,000 pounds of marijuana, one ton each of cocaine and 
ecstasy, and significant amounts of heroin and methamphetamine.
    Likewise, we removed about 47,000 illegal aliens from the 
northern border region, roughly half of whom were criminal 
offenders.
    We are able to pursue our success in all of these areas due 
to our partnerships and initiatives with other law enforcement 
agencies. We maintain the largest law enforcement footprint of 
any U.S. agency in Canada, with four attache and assistant 
attache offices.
    In these offices, we not only coordinate enforcement 
efforts with Canadian law enforcement, we also run a visa 
security program to add an additional layer of vetting to the 
U.S. visas issued by the State Department.
    Our interagency partnerships along the northern border are 
principally the integrated border enforcement teams, the IBETs, 
and the Border Enforcement Security Task Forces, or BESTs. We 
now have 21 Border Enforcement Task forces and I thank Congress 
for the tremendous support they have received to date.
    The strength of the BEST task force model is that it 
involves the permanently collocated investigative task forces 
of Federal, state, local and foreign law enforcement agencies. 
We actually have cross-designated Canadian law enforcement 
officers working on our side of the border. They are located 
immediately on the border and specifically target cross-border 
crime. And I want to note that CBP is our principal and 
essential partner in every single one of them.
    We have three BEST teams operating on the northern border, 
one in Blaine, one in Detroit, and one in Buffalo; and, as you 
know, we will be establishing a new BEST in Massena, New York. 
And, Mr. Chairman, I thank you for the significant support you 
have given us on that score.
    I just want to highlight why this works well, and there is 
a particular example in my written remarks. But on December 15, 
2010, a Canadian citizen tried to enter the United States via 
the Detroit Ambassador Bridge. CBP officers working for the 
Commissioner discovered suspected marijuana in the vehicle and 
contacted ICE.
    We responded with our BEST team. We quickly arranged for 
the arrested driver to cooperate. We engaged in a controlled 
delivery to Troy, Michigan. This included local law enforcement 
officers from Troy, Trenton and Detroit, Michigan.
    We ultimately delivered the narcotics or the marijuana in 
question. We arrested the boyfriend. We turned right around 
and, working with the Canadian members of the same BEST task 
force, executed two search warrants in Canada, and the 
Canadians arrested another two individuals. All four 
individuals were prosecuted.
    None of this would have been able to have occurred had we 
not all been sitting together and able to move in very quick 
time, and that is why BEST works.
    ICE's great strength is that it has a strong presence on 
the border, in the interior and overseas. This allows the 
Agency to attack and penetrate organized cross-border crime at 
all stages. And when you couple it with CBP's impressive powers 
of inspection, surveillance and interdiction, the combination 
proves to be a strong force in favor of border security and the 
sound management of the flows of goods and people to and from 
the United States.
    Obviously, resources are a challenge, as Senator Cornyn has 
noted. There are many and varied threats facing CBP and ICE 
every day, but we have got a tremendous workforce out there 
every day trying to do the right thing.
    I would close, again, with my condolences to Commissioner 
Bersin for the two Border Patrol agents lost in Gila Bend. We, 
as the members of the Committee know, just lost a special agent 
in Mexico to the cartels. And so we feel the pain that CBP is 
going through.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Morton appears as a 
submission for the record.]
    Senator Schumer. Thank you, Mr. Morton.
    My first question is for Mr. Bersin. As you know, we have 
had a major problem on the northern border with the smuggling 
of drugs, methamphetamines and ecstasy, as well as marijuana, 
and these drugs are smuggled into the country using low-flying 
planes.
    On February 10, 2011, I, along with some of my colleagues, 
sent Secretary Napolitano a letter asking that DHS deploy 
sophisticated military radar technology along the northern 
border to catch low-flying aircraft that would otherwise not be 
caught with the current technology DHS uses.
    At a hearing last month, Secretary Napolitano said she 
intended to improve our ability to catch low-flying aircraft by 
integrating the military radar feeds that Canada uses with our 
own AMOC.
    When do you think the integration of the Canadian radar 
fees into the AMOC, the American center, will be up and 
running?
    Commissioner Bersin. Mr. Chairman, we expect that the 22 
Canadian radar fees will be sent to the Air and Marine 
Operations Center, the AMOC, by the third quarter, November 
2011.
    Senator Schumer. Great. That is very good news. Thank you. 
I appreciate hearing that. I don't have to say anymore. You 
have done very well on that question.
    A positive aspect of the GAO's northern border report with 
its statement that to address vulnerabilities related to 
insufficient staff and resources, DHS issued 3-year grants to 
tribal nations and state and local governments under Operation 
Stonegarden to augment Border Patrol personnel and resources 
for patrolling the land and border.
    Now, despite the benefits that Operation Stonegarden has 
had in improving security along the border, the Administration 
did not request Stonegarden funds for the northern border and 
limited its request to $50 million for the southern border.
    It appears that the House appropriations bill calls for $55 
million to be allocated for Stonegarden. If we indeed can 
maintain the $5 million of extra funding in the appropriations 
process, can you commit that that extra money, not taking away 
from my friends on the southern border, will be used to keep 
Stonegarden going on the northern border?
    Commissioner Bersin. Absolutely. I thought when you 
started, Senator, that I wouldn't be able to do so well on this 
question. But as framed, there is no question but that 
Operation Stonegarden has considerable benefits in terms of the 
link between the Border Patrol and the state, local and tribal 
law enforcement.
    It works well in the south, it works well in the north, and 
we will employ whatever resources are provided.
    Senator Schumer. If the extra $5 million stays, it would go 
to the northern border.
    Commissioner Bersin. If it is on top of the money that has 
been allocated, yes, sir.
    Senator Schumer. All right. Batting two for two. Wish you 
were playing for the Yankees against the Red Sox this weekend.
    In early January, we were successful in passing the 
Northern Border Counter-Narcotics Strategy Act. This law 
requires, according to the Office of National Drug Control 
Policy, to develop a comprehensive, integrated, counter-
narcotics strategy for all agencies along the border.
    I can report that ONDCP has told my staff this strategy 
will be done by July 4. An important part of that strategy will 
be the operations integration center in Detroit.
    The center will provide a centralized location to gather, 
analyze and disseminate operational and strategic data from all 
the Federal, state, local, tribal and Canadian law enforcement 
in the Great Lakes region.
    Would DHS benefit from opening a similar operations 
integration center in the eastern part of the northern border, 
preferably in New York? Now that the Chairman is gone, I can 
certainly say that.
    Commissioner Bersin. Senator, as you know, ONDCP is in the 
process of completing the northern border counter-narcotics 
strategy, and you are correct that the fusion center, the 
operation integration center in Selfridge in Michigan is a 
highlighted portion. It is a proven, tried and tested technique 
of law enforcement, the kind of fusion that Secretary Morton 
referred to in the context of the BESTs work whenever put 
officers together.
    So without prejudging where that center would be located, 
we certainly endorse the notion of continuing integration along 
those lines.
    Senator Schumer. Great. That is good news, too. Thank you.
    Finally, for you, I sent a letter on April 14 asking you to 
take action addressing delays in train travel between the 
Quebec-New York corridor, as incoming trains to the U.S. are 
stopped at our border for up to 2 hours to complete the 
clearance and screening process for passengers on board.
    Can we count on you to speed up the trains between Quebec 
and New York?
    Commissioner Bersin. As you know, we have in place, between 
Canada and the United States in the Pacific Northwest corridor, 
pre-clearance both for air traffic, which we also have on the 
east cost, but also with regard to rail traffic.
    Senator, we are happy to continue to explore those options 
in the Montreal-New York corridor. There is a major difference, 
though, which is that there are interim stops between Montreal 
and New York in a way that is not the case between Vancouver 
and Seattle.
    But we are committed to continuing to explore with you this 
notion of expediting that local traffic.
    Senator Schumer. And you are working with Amtrak to try--
knowing the differences between the west coast and us, to try 
and work that out.
    Commissioner Bersin. Yes, sir.
    Senator Schumer. Because it is a real impediment. Thank 
you. I am confident that if you work with Amtrak, you can.
    My final question. In Western New York, we have two 
bridges. They are the Peace Bridge and the Lewiston Bridge and 
the Queenstown Bridge, which are, respectively, the third and 
fourth busiest commercial crossings in the Nation, handling $30 
billion in commerce between the U.S. and Canada.
    We have been getting a lot of complaints from our business 
leaders about the amount of time it is taking for commercial 
traffic to enter the U.S. from Canada. Is there something you 
can do to expedite commercial traffic to the U.S. from Canada, 
such as pre-screening commercial vehicles on the bridges?
    Commissioner Bersin. Yes. We are working closely in the 
wake of President Obama and Prime Minister Harper's Beyond the 
Border statement. We have a very deep relationship of 
cooperation with CBSA, Canadian Border Services Agency, and one 
of the things we are exploring with them is the notion of pre-
inspection, the concept that we could separate out trusted 
shippers and trusted shipments, even in advance of them coming 
to the port of entry and, therefore, permitting them to be 
released without having to go through the ordinary port of 
entry process.
    That is a matter that we are working on and hope to present 
a pilot in the not too distant future.
    Senator Schumer. Now, the high risk is a good step and I am 
glad you are doing it, but that is only about 5 to 10 percent 
of our commercial truck traffic on these bridges.
    Will you commit to working your Canadian counterparts to 
see that all commercial trucks bound for the U.S. get pre-
cleared in Canada? I know you cannot snap your fingers and do 
that, but try and get that--is that a goal of the Department?
    Commissioner Bersin. As far as practicable, the notion of 
segmenting out trusted traffic is very critical to heightening 
the security profile. I doubt and am certain we will never 
reach 100 percent level, but we certainly can start down the 
path of segmenting traffic based on high risk or low risk.
    Senator Schumer. With the indulgence of my colleagues, I 
will just ask one quick question of Mr. Morton.
    One of the most effective things that ICE does is the 
Border Enforcement Security Task Force teams it operates. They 
consist of personnel from ICE, Customs and Border, and police 
from local Indian tribes.
    I was very pleased to see that last week that ICE is 
forming one of these BEST teams in Massena. Given what is at 
stake, I would like to see this team up and running as soon as 
possible.
    You know the problems we have had on the border. When do 
you think the BEST team in Massena will be up and running?
    Mr. Morton. Mr. Chairman, I think the BEST team will be up 
and running by the end of this fiscal year, in October.
    Senator Schumer. Great. That is good, good news.
    Senator Cornyn.
    Thank you both.
    Senator Cornyn. Commissioner Bersin, this is not a zero sum 
game, even though Senator Schumer and I are having some good-
natured competition in terms of the attention your agency gives 
to the northern border versus the southern border.
    This is all a Federal responsibility. I know you know that. 
We know that. But I would just like to ask you, in terms of the 
number of people that are detained coming illegally across the 
northern border, how does that compare to the 445,000 that were 
detained at the southern border, 59,000 of whom came from 
countries other than Mexico last year?
    Commissioner Bersin. It is a small, small fraction. We 
detained and arrested 6,000 people on the northern border. But, 
Senator, I know, because you referred to it in your opening 
remarks, that does not mean that we do not face significant 
threats.
    In fact, in many ways, in terms of the terrorist threat, it 
is commonly accepted that the more significant threat, because 
of the population and because of certain relationships with 
Canada, people who can enter Canada and then come across our 
bridges into the United States, of course--and I know you know 
this--we have to maintain a very high security profile.
    Because of the fact that we do not share no-fly information 
and the Canadians will not, we are, more than we would like, 
confronted with the fact where a no-fly has entered Canada and 
then is arrested coming across one of our bridges into the 
United States.
    So I take your point. The number is a very small fraction, 
but it still remains the kind of threat that requires our 
attention.
    Senator Cornyn. I am sure that is true. But I know and you 
know that the 59,000 people who come through Mexico into the 
United States from all over the world, including some of those 
countries that are state sponsors of terrorism--and you know, 
as I know, that some organizations that finance organizations 
in the Middle East that are committed to jihad exist in South 
America.
    So we are not in a zero sum game here. I am just trying to 
document here the magnitude of the threat throughout the 
country and why I am absolutely committed to working with our 
colleagues to try to make sure you get the resources you need 
in order to do your job, because it is impossible for you to do 
your job given the current level of resources, in my view.
    You appropriately noted the importance of infrastructure 
and staffing at the border ports of entry. I have introduced a 
bill called the Emergency Port of Entry Personnel and 
Infrastructure Funding Act of 2009. As I have said the bill 
would authorize $6 billion over 6 years for additional CBP 
officers at our ports, modernization of our current land ports 
of entry, and construction of new ports at the southern and 
northern borders.
    Are you familiar with that legislation?
    Commissioner Bersin. Yes, sir.
    Senator Cornyn. Will the Administration support the bill?
    Commissioner Bersin. That, as you know, Senator, going 
forward, is a determination not in the hands of CBP, but rather 
in OMB. We have received support in terms of additional CBPOs, 
but I do not think that anyone denies the fact that with regard 
to staffing the ports of entry, that we need to increase CBPOs.
    We opened up, as you know, three ports of entry for the 
first time in 10 years on the southern border, two of them in 
Texas, in Anzalduas and Donna, and we did receive 300 
additional CBPOs on top of the 250 CBPOs in the southwest 
supplemental.
    So that helps, but I take your point.
    Senator Cornyn. The GAO cites limited equipment, technology 
and infrastructure as a major challenge to stopping money and 
guns heading south. As we all know, the bulk cash that goes 
south is an integral part of the illegal drug transaction. If 
we can find a way to stop the money, then we can go a long way 
in defeating the cartels.
    For example, ATF officers at the U.S.-Mexico border have 
indicated that one of their challenges in intercepting illegal 
firearms heading south is the ability to provide vehicle 
information to CBP officers on a timely basis.
    According to the GAO, currently, license plate readers are 
available for only 48 out of 118 outbound lanes on the 
southwest border and none have been installed--none--in the 179 
outbound lanes on the northern border.
    When will CBP have all ports of entry equipped with license 
plate readers?
    Commissioner Bersin. Senator Cornyn, I cannot give you a 
definite date on which we will have all lanes completed with 
regard to LPRs. We accept the validity of the technology and we 
have, as you have noted, expanded it dramatically from where it 
was.
    We have, again, as you know, particularly in the bridges in 
Texas, difficulty in the traffic and the road infrastructures 
leading into the ports of entry, which make it very difficult 
to place the LPRs in a way that permit us to operate.
    We are working very hard on the issue and, as you know, 
southbound inspections are a critical dimension of our work in 
ways that were not true in the past. We are cooperating very 
much with ICE, as well as with state and local law enforcement 
to do those inspections, but we have a lot more work to do, to 
be sure.
    Senator Cornyn. The Chairman has graciously allowed me to 
ask one more question, even though my time is up, because I am 
going to have to leave to go to another meeting.
    But, Mr. Morton, when we asked about the policy of the DHS 
with regard to dismissing cases against criminal aliens, is the 
DHS aware that immigration courts are dismissing cases 
involving criminals due to backlogs?
    Mr. Morton. I am not aware of any DOJ policy dismissing 
criminal aliens due to backlogs. No, sir.
    Senator Cornyn. I'm sorry. DHS.
    Mr. Morton. And I am not aware of a DHS policy with regard 
to dismissing criminal aliens due to backlogs. The only policy 
that I am aware of, Senator, is the policy to terminate those 
cases in which someone is the likely recipient of a green card 
in proceedings and, obviously, if they are going to be given a 
benefit by the Department of Justice in the form of permanent 
residence, we do not want to, at the same time, waste 
government resources on those cases.
    Senator Cornyn. So just to clarify, there is a DHS policy 
distinguishing between which aliens that have been detained and 
are at law enforcement facilities, which cases will be 
dismissed, and which cases will not be dismissed.
    Mr. Morton. Senator, I am not aware of any policy in terms 
of dismissal. There is very much a policy with regard to 
priorities and where we use our resources.
    I will tell you, as the head of the Agency, however, 
criminal offenders are our highest priority and this year I 
think you will see for the first time in the Agency's history, 
we will remove more criminal offenders than non-criminal 
offenders.
    So, again, if there is a specific concern you have, I would 
ask that perhaps our staffs talk, because I would be concerned 
by a policy that we are dismissing the case--immigration 
removal cases of known criminal offenders.
    Senator Cornyn. We will follow-up with you. Thank you very 
much.
    Senator Schumer. Thank you, Senator Cornyn.
    Now, Chairman Leahy.
    Chairman Leahy. Thank you. I do not want to sound 
parochial, but I do have a few. We have talked about the border 
crossing and talked about pre-screening.
    With the question of Amtrak, having trains come down 
through Vermont and from Canada or vice versa, the thing that 
stops it now is the passenger screening issue.
    Could you support the creation of a pre-clearance facility 
at a train station, say, in Montreal, very similar to the kind 
of pre-clearance facilities that you have in a lot of our 
foreign airports?
    Commissioner Bersin. Senator Leahy, as I indicated, we are 
exploring with CBSA, the Canadian Border Services Agency, the 
way in which we can expedite this pre-clearance.
    The difficulty in the Montreal-Vermont-New York corridor is 
that unlike Vancouver-Seattle, there are many stops along the 
way, which complicates the notion of pre-clearance, because you 
cannot then segment the traffic when it arrives in New York.
    But we are certainly willing to explore the options and 
will continue to work with you and your staff and with Amtrak 
to see how we can manage the problem better.
    Chairman Leahy. Well, I appreciate that. Next week, there 
is a meeting, I believe. The Governor of Vermont, Amtrak, and 
Canadian officials are meeting in Vermont, in Burlington, for a 
cross-border conference and I would encourage your Agency to 
send a representative to that conference.
    Commissioner Bersin. I will look and be in touch with Mr. 
Weeks, who heads up the CBPOs, and with Chief Fisher, who you 
know well, to see if the chief will attend along with the DFO.
    Chairman Leahy. That would be very helpful.
    Let me ask you about another question which I have raised 
with Secretary Napolitano. You have a checkpoint used 
periodically on Interstate 91. It is about an hour and a half 
drive from--by interstate, it is about an hour and a half or 
more drive from the northwest crossings from Canada into 
Vermont. It is about a 3-hour drive from the northeast crossing 
from Canada by interstate into Vermont.
    I cannot tell you the number of complaints I get by 
Vermonters who get stopped there and have proof demanded of 
them that they are American citizens. These are people that 
probably have lived, as I have, in Vermont their whole life.
    They are wondering why there is all this, the guns, the 
uniforms, the flashing lights, everything, when there are half 
a dozen parallel roads, if somebody was really inclined to do 
something, they would just drive down one of the two-lane roads 
where there are no stops, and especially something so far from 
the border.
    I get questions like, ``Do you guys have so much money you 
have got to find a place to spend it? '' And in one case, 
somebody showed her Vermont driver's license, and was driving a 
Vermont registered car, was detained for some time, and told 
she had to show her proof of citizenship.
    In this case, we are a state probably 97 percent white and 
she did not fit that profile, and it made my blood boil to hear 
her story.
    So are you starting to see whether this thing really makes 
sense?
    Commissioner Bersin. Senator Leahy, checkpoints have been a 
standard feature of Border Patrol strategy and tactics and are 
being applied on the northern border as we expand the presence 
there.
    The notion is----
    Chairman Leahy. It is a long way from the border.
    Commissioner Bersin. Well, the notion is layered security, 
which is the theory of action of Border Patrol activity 
throughout. But I understand that when it occurs, as it is 
occurring now in the north from Washington to Maine, that 
citizens are questioning it and wondering what is this presence 
and why does it have to happen at a space and a time removed 
from the border.
    We need to have Chief Fisher actually hold forums 
throughout Vermont, need to meet with the community, explain 
what the theory of action is, reach out, listen to people's 
complaints, and explain why they do what they do.
    That has been the pattern that I trust will produce more 
understanding, if not less opposition immediately on the part 
of the citizens of Vermont.
    Chairman Leahy. Well, I kind of know how they feel. A 
number of years ago, and this was not something recent, but I 
drive to Vermont once or twice a year. Normally, I would fly, 
but during the August break, I drive. About halfway down the 
state, there is a very old crossing that crosses over into New 
York. I have crossed that way, I have come down through the 
Adirondacks, which is a very pretty area.
    Senator Schumer. You are always welcome, Mr. Chairman.
    Chairman Leahy. Thank you. And we got stopped at one of 
these. There was a family from Montreal. They were on their way 
actually to Florida, because I had asked them, and they were 
having to take all their suitcases out and the man came up and 
he said, ``Pull your car over there.''
    I asked, ``Why?'' He said, ``We have to prove you are a 
citizen.'' I said, ``Well, what is your authority?'' And he 
pointed to his holstered weapon and said, ``That is all the 
authority I need.''
    Now, that struck me as not the best way to win friends and 
influence people. I asked if he had a supervisor, who actually 
came around the car at that point and looked at my license 
plate. It is one, just the number one.
    We are a small state. We do not have many cars.
    [Laughter.]
    Chairman Leahy. But they were looking at that and I could 
still see him kind of--he came over, well, that is fine. And, 
obviously, I could prove my citizenship, but I just thought 
this was unfortunate.
    Now, at that time, I understand this was some time ago, 
long before you were there. Steps were taken, some re-training 
was done of the people involved. But I want our borders to be 
secure.
    But we are such a wonderful country, I want us all to be 
welcoming to people. I do not want, at a time, again, when we 
are trying to attract people, businesses, tourists, everything 
else to come from other parts of the world, I want them to feel 
welcome here, just as other countries make us feel welcome.
    Commissioner Bersin. We are completely in agreement with 
that. And while that incident is unfortunate and regrettable, 
it also is----
    Chairman Leahy. A long time ago.
    Commissioner Bersin. It also points out the need for us, as 
you say, as we evolve into what I hope will become a premier 
law enforcement agency, that customer satisfaction and 
professionalism are required. We can be tough and fair and 
welcoming all at the same time.
    Chairman Leahy. I cross our borders all the time. I did a 
few weeks ago coming through--I had been scuba diving down in 
the Caribbean and came through Puerto Rico. The people could 
not have been more professional and nicer.
    I was in line with everybody else. They were being very 
nice. They had no idea who I was or anything else. They just 
were very, very nice, and I want to compliment them on that.
    Commissioner Bersin. Senator, I hope you will consider 
becoming a member of Global Entry. It is the trusted traveler 
program, you bypass the line.
    Chairman Leahy. I actually prefer just getting in line with 
everybody else just to see how it goes. So thank you.
    Commissioner Bersin. Thank you.
    Senator Schumer. Thank you, and thanks for coming, Mr. 
Chairman.
    Senator Grassley's entire statement will be read into the 
record, and he is on.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Grassley. Thank you very much, Mr. Chairman.
    Director Bersin, on April 13, you responded to two letters 
that I sent you. You responded by citing Privacy Act 
considerations and failed to provide basic answers to 
questions.
    I realize that this is a cut-and-paste response that we get 
from too many administration bureaucracies when they do not 
want to answer inquiries from Congress.
    However, with a Border Patrol agent dead, this kind of 
response is unacceptable. There are serious questions that need 
to be answered, especially in light of the fact that two of the 
guns which were recovered at the crime scene at Border Patrol 
Agent Brian Terry's death were part of an operation conducted 
by ATF called Operation Fast and Furious.
    So, Mr. Bersin, did Customs and Border Protection agents 
ever stop any suspects with weapons near the border, but were 
instructed by ATF or the U.S. Attorney's Office to let them go?
    Commissioner Bersin. Senator, no. I have never heard of 
that allegation. I have not received any report from within CBP 
in which that request was made, let alone granted. And as you 
know, with regard to that letter, the two questions that you 
focused on, there were very straightforward answers, which is, 
one, Brian Terry, our agent who died in the canyons west of 
Nogales on that December night, as all of his colleagues were 
fully armed and prepared to use force; and, second, that there 
is no requirement in CBP that less than lethal weapons be used 
in advance of defending yourself.
    When someone points a gun at you, under our rules of force, 
you are entitled to kill that person, and they were so 
authorized and prepared to act.
    With regard to the Fast and Furious, I am not the agency 
who is conducting that investigation. But with regard to your 
specific question, I have no information nor have I ever 
received any report to that effect, sir.
    Senator Grassley. Could you tell me how you feel about the 
fact that another agency's decision to put hundreds of guns 
into the hands of criminals on both sides of the border may 
have contributed to the death of Brian Terry?
    Commissioner Bersin. Senator, I am not going to condemn ATF 
on the basis of that generalized statement. I do not believe 
that it accurately depicts what has been investigated.
    So, no, sir, I cannot subscribe to that statement as 
framed.
    Senator Grassley. Well, let me tell you, you may not feel 
comfortable in answering the question, but there is enough 
evidence out there that I have in documents that have come to 
me clandestinely to prove that this is not something that is 
hypothetical, that this is a real sad situation.
    But I will go on and ask another question. The inability to 
secure our northern border leaves our country at a distinct 
disadvantage. Criminals can enjoy the freedom to transport 
illegal narcotics into the United States and, also, to 
transport--well, in the process, terrorists can even gain entry 
to our country.
    The U.S. GAO report describes an inadequate response by the 
Department of Homeland Security, the Department of Interior, 
and the U.S. Department of Agriculture toward coordinating 
efforts at securing the border.
    So, Mr. Bersin, Border Patrol has indicated that they are 
only able to secure within acceptable levels, and those are the 
words of the report, 69 of the nearly 4,000 northern border 
miles between Washington and Maine.
    Do you believe that securing less than 2 percent of the 
northern border is acceptable?
    Commissioner Bersin. Senator, that mischaracterizes, 
respectfully, what the GAO concluded and how we define border 
security.
    The notion of operational control is a concept that was 
utilized, for the most part, on the southern border. It had to 
do with the tactical deployment of Border Patrol agents during 
a period in which we doubled the size of the Border Patrol from 
2004-2010, and this was used on a sector-by-sector basis to 
determine mile-by- mile along the border how to deploy those 
agents.
    We discussed that with Mr. Stana and the GAO and are 
working to correct the notion that operational control as 
utilized there is what is being used to measure border security 
across the northern or southern border.
    With regard to the USDA and the DOI, actually, that is a 
good news story, Senator.
    Senator Grassley. Before you answer that, let me ask a 
specific question, because I think you are starting to answer 
it, but let me ask.
    The GAO report consistently describes a failure to share 
intelligence and develop joint budget requests or strategies to 
address these threats. Can you describe why it is so difficult 
for agencies to effectively communicate and coordinate and 
intelligence, along with whatever else you were going to say?
    Commissioner Bersin. Well, with regard to intelligence-
sharing, actually, we are considerably further ahead--in fact, 
leagues ahead of where we were when I left Federal service at 
the end of the 1990s.
    Senator Grassley. So you are saying that GAO is wrong on 
that point.
    Commissioner Bersin. I am saying the GAO had pointed out 
specifically, if I am following your reference, that there were 
issues between the Border Patrol and Immigration and Customs 
Enforcement agents on the northern border.
    I have actually--when I saw that report, Director Morton 
and I have discussed it and we agreed that we have not gotten 
the specifics and have asked that the GAO be very specific 
about the offices in which that lack of communication has taken 
place.
    The BESTs, as Director Morton indicated in his opening 
remarks, and the IBETs, which are another form of 
communication-sharing and coalition-building involving 
Canadians, as well as American law enforcement, actually 
provides for better information-sharing than we have had.
    It is not to say that we cannot improve it. We always can 
strive to do that, Senator.
    Senator Grassley. Let me ask Mr. Morton a question. In June 
of 2010, the union representing ICE agents released a letter 
announcing a unanimous, ``vote of no confidence'' for ICE 
leadership. The union's letter accused Assistant Secretary 
Morton and his command staff of, ``misleading the American 
public.''
    Agents claimed that the ICE leadership spent more time 
campaigning for immigration reform as opposed to enforcing the 
Agency's, ``core mission of enforcing U.S. immigration laws and 
providing for public safety.''
    The letter also stated that, ``ICE has virtually no 
consistent national policy. As a result, the Agency's lack of 
adequate direction and material infrastructure.'' ICE agents 
also described how criminal aliens, ``bragged to ICE officers 
that they are taking advantage of the broken immigration system 
and will be back in the United States within days to commit 
crimes.'
    It is unfortunate that agents responsible for carrying out 
our immigration laws feel that the Agency is politicizing the 
issue and abandoning the Agency's core responsibility to the 
American people.
    So, Mr. Morton, how have you addressed the complaints of 
your agents since issuing a no confidence letter last June?
    Mr. Morton. Well, a few things, Senator. First, as you may 
know, I was a career Federal prosecutor, before I came to this 
job, and spent my entire professional career in law 
enforcement.
    Second, we have demonstrated quite, I think, clearly that 
the enforcement activities of the Agency when it comes to 
immigration enforcement, and that is half of what we do, is at 
an all-time high. There has never been a director of the Agency 
that has presided over a larger number of removals from the 
United States.
    When it comes to criminal offenders, there is no question 
that our record is, I think, a solid one for the first time in 
the Agency's history.
    We, this year, will pass 50 percent of the removals from 
the United States will be of people with a crime.
    Just to give you some sense of it, the last fiscal year of 
the last Administration, the number of criminal offenders was 
at about 35 percent of our overall removals. That is now at 50 
percent under my leadership and the number of removals from the 
country, again, has never been higher.
    So I reject any suggestion that the Agency's enforcement 
efforts when it comes to immigration enforcement have been 
reduced and, obviously, we work within the appropriations and 
the resources that we have.
    I issued the first civil enforcement priorities memo the 
Agency has had, directing us to focus first and foremost on 
criminal offenders, second on border security.
    Our coordination with CBP has never been stronger and, in 
fact, the Commissioner and I are discussing further ways to 
latch CBP and ICE at the hip to ensure that border security is 
high as it possibly can be.
    And, finally, we spend a lot of time on people who game the 
system. The number of criminal prosecutions for illegal reentry 
is, again, an all-time high. We have never prosecuted more 
people for illegal reentry.
    The Commissioner and I are both a firm believer in making 
sure that there are consequences for people who violate the law 
along the border, and the results sort of speak for themselves.
    Senator Grassley. Madam Chairman, since I used 1 minute 
longer than Senator Leahy did, I will--because we have all gone 
well over the 5 minutes, I will put just a statement in the 
record in response that basically the Washington Post editorial 
saying that as far as this recordkeeping is concerned, that the 
Agency has cooked the books on the numbers.
    Senator Klobuchar [presiding.] Very good. That will be 
included.
    [The article appears as a submission for the record.]
    Senator Klobuchar. I had some questions on some different 
topics here, but I want to just start with a general question.
    I head up the Senate side of the U.S.-Canadian Inter 
parliamentarian Group and am on the Canadian border, and we 
have a lot of work and economic activity with positive tourism 
with Canada from Minnesota.
    And I wanted to hear more about the work that you do with 
the Canada, the joint programs to combat terrorism, smuggling, 
fraud, and other crimes against the border.
    I have been at a number of our border crossings and have 
seen some of the good work going on there, and, also, some of 
the work that has been done to try to at least get at some of 
the problems with delays at the border crossings.
    I just wonder if you could address some of the joint 
efforts that are being made.
    Commissioner Bersin. Thank you, Senator. There are three 
major dimensions to the work that we do with both the Canadian 
Border Services Agency, which handles their side of the 122 
ports of entry, but also with the Royal Canadian Mounted Police 
between the ports of entry.
    The three areas are information-sharing--we have created, 
for the first time, a series of port committees in which the 
management of the Canadian side of the border and the U.S. side 
of the border meet regularly to work on common problems of 
expediting flow, as well as securing that flow from north to 
south and south to north.
    The second is, as I mentioned in response to a question 
from Senator Schumer is the notion of pre-inspection, which is 
the concept of actually pre-inspecting cargo before it gets to 
the United States so that we can expedite its movement after 
doing the proper checks. We see that as a major way of 
segmenting traffic.
    Also connected is the harmonization of the Partners in 
Progress, which is the Canadian trusted shipper program, 
together with our Customs and Trade Partnership Against 
Terrorism, that will permit companies to be jointly validated.
    We are also working with the Canadians to create a unified 
approach to trusted travelers. So that, as you know, we have 
the NEXUS program that permits expedited crossing of trusted 
travelers from north to south and south to north. We, in the 
last quarter, extended the privilege of Global Entry, which 
makes that possible in airports to all members of NEXUS.
    And lastly, we cooperate considerably in terms of 
intelligence-sharing and data-sharing. So I expect that 
President Portelance, who is the head of the CBSA, will be 
coming to Washington after the Canadian cabinet is announced 
this week or next to pick up where we left off before the 
election, and one of the first items of business will be the 
signing of an agreement that sends a Canadian official to our 
National targeting center in Herndon on cargo and passengers, 
and we will be sending a CBP officer to the National Risk 
Assessment Center in Canada.
    So in those three ways, but there are other illustrations, 
we are seeing cooperation as never before in keeping with the 
border vision issued by Prime Minister Harper and President 
Obama.
    Senator Klobuchar. Very good. And I am head of the 
Subcommittee that includes tourism. So my take on this is a 
little different than some people as we try to figure out how 
to make those crossings secure, but also simple for people. I 
think it is really important.
    We actually have a couple hundred people in Minnesota, I do 
not know if you know this, that have to go through Canada to 
get to their homes and, in fact, only when the ice is frozen 
over is that not true. Then they can snowmobile across the 
border.
    So anything that you can keep doing in that vein, as we 
look at tourism as our No. 1 export out of this country, to 
make that simpler would be helpful.
    I also just wanted to mention, I think you are aware of 
this, Senator Franken and I have written letters about this 
project, but there is a city that is applying to be one of the 
ports of entry, and it is Hallock, and they are looking to have 
the Border Patrol facility.
    I just wanted to give, again, a good word for that city. 
They have a good police and sheriff's department. They have an 
airport that is less than two miles away. They are prepared to 
work to ensure that the land is affordable.
    And I think one of the most important things, as you have 
seen the flooding across this country and especially in that 
part of Minnesota and North Dakota, they are actually 20 feet 
higher than some of the other sites that are looked at and 
while the other sites have been closed off by flooding for part 
of the year, they have not been. And so I hope that is 
something that you will consider as you look at the border 
facility. And I know Senator Franken feels strongly, as well. 
So I wanted to put in that pitch as you look at facilities.
    Another issue I wanted to mention is honey laundering, and 
I know your agencies have been involved in that. At first when 
you say this, people somewhat laugh. Senator Schumer has been 
involved in this, as well, but in Minnesota, it is real jobs. 
We are sixth in the country for honey.
    What we find is that producers have been hurt by some 
activity going on in China where they have been mislabeling or 
trans-shipping honey under the guise of sweetener to avoid 
paying duties. They also have been sending low quality, other 
countries have been doing this. They have been producing honey 
and then it goes from foreign countries that do not have to pay 
as high of tariffs, and that is why they have been unfairly 
competing.
    Suddenly, there is a huge boost in honey from a country 
that does not even make it. You know that that is a problem.
    And I know that there is some work being done in terms of 
the FDA looking at establishing a national standard of identity 
for honey, but if you could talk about what progress--I know 
there have been some prosecutions for honey laundering, but 
what has been going on and is there more work that we can do?
    Commissioner Bersin. The mislabeling in the source 
countries is a large problem and in the area of honey, 
actually, we have been able to make more progress in concert 
with Homeland Security Investigations and with the FDA than we 
have had in other areas, notably textiles, although we are 
working on that, as well.
    But this is a--there was some very highly publicized 
investigations and then prosecutions having to do with that, 
and I think we have identified the problem, developed the law 
enforcement coalitions able to address them, and are on the 
lookout for honey laundering, as you describe it.
    Senator Klobuchar. Good. Do you want to add anything, Mr. 
Morton?
    Mr. Morton. The Commissioner has really summed it up right. 
We have a very close relationship with CBP and we investigater 
all of the honey that they identify as mislabeled. And as the 
Commissioner noted, we have had some very good successes 
lately.
    The one thing I would add is not only do we approach it 
from the perspective of trying to evade customs, duties and 
unlawfully compete with domestic producers, a number of our 
cases have also involved adulterated honey. And so there is a 
real health and safety issue to it, as well, and we are very 
concerned about that across the board.
    But I know, obviously, of your concerns here and we do 
actually have quite an aggressive effort to investigate honey 
laundering and I expect you will see more of the same in the 
future.
    Senator Klobuchar. That is good, because I am going to see 
all the honey people at the Minnesota State Fair in August. So 
we will then track our progress from the last state fair. But 
we are trying to push for this honey standard, which I do not 
think we have yet from the FDA, and then also just increase 
prosecutions.
    So I appreciate both of your work in this area. As you 
know, it is a safety concern, but also a job issue for the 
United States.
    With that, I do not think there are going to be other 
Senators coming today. I want to thank both of you for being 
here. You had to answer a broad range of questions from 
counterterrorism to honey. So I appreciate that, and I want to 
thank both of you for being here.
    The record will remain open until Monday, May 23 for 
further testimony and questions. I would like to thank the 
following individuals and groups for submitting testimony for 
the record: the National Treasury Employees Union, that is NTEU 
and New York State Assemblywoman Addy Russell.
    I ask unanimous consent that these statements be inserted 
into the record of this hearing. Without objection, so ordered.
    [The statements appear as a submission for the record.]
    Senator Klobuchar. And the hearing is now adjourned.
    [Whereupon, at 11:22 a.m. the Subcommittee was adjourned.]
    [Questions and answers and submissions follow.]
  
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
